TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                    A Better Model Is Needed to Project the
                    Return on Additional Investments in Tax
                                 Enforcement



                                         September 2005

                              Reference Number: 2005-10-159




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.


 Web Site          | http://www.tigta.gov
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                         September 22, 2005


 MEMORANDUM FOR COMMISSIONER EVERSON



 FROM:                       Pamela J. Gardiner
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – A Better Model Is Needed to Project the Return
                             on Additional Investments in Tax Enforcement (Audit # 200510016)

 This report presents the results of our review to evaluate the return on investment for
 enforcement activities based upon the expected revenues reported in the Internal Revenue
 Service (IRS) Fiscal Year (FY) 2006 budget request. In discussing the requested increase in its
 budget for new tax enforcement initiatives for FY 2006, the IRS Commissioner noted there is a
 yield of more than $4 in direct revenue from IRS enforcement efforts for every $1 invested in the
 IRS’ total budget. The former Deputy Secretary of the Treasury asked the Treasury Inspector
 General for Tax Administration to evaluate whether 4 to 1 is an appropriate ratio to use to
 determine the return on additional investments in enforcement activity.

 Synopsis
 In general, we do not believe there is an adequate basis to use the total IRS budget to determine a
 return on investment for enforcement activities. Enforcement is only one component of the IRS
 that collects revenue. The return on investment for the entire IRS budget is more appropriately
 compared with all revenues collected, $2.0 trillion in FY 2004, which provides a return on
 investment of approximately 200 to 1 on the total IRS budget. In contrast, enforcement revenue
 ($43.1 billion in FY 2004) compared to the enforcement costs ($6.1 billion in FY 2004) equates
 to an overall return on investment for enforcement activities of 7 to 1.
 The IRS provided estimates that it will eventually achieve approximately $1.17 billion in
 additional revenues if additional funding for its proposed FY 2006 enforcement initiatives is
 approved. This would equate to a 4.4 to 1 return on investment. Officials in the Office of the
 Chief Financial Officer (CFO) and the Office of Research, Analysis, and Statistics (RAS) believe
 the 4.4 to 1 return on investment is a conservative estimate. However, our analysis indicates the
                    A Better Model Is Needed to Project the Return on Additional
                                 Investments in Tax Enforcement



estimate may be too high. Furthermore, achieving the maximum revenue through increased
enforcement staffing can occur only over time. As such, the anticipated return on investment
would not be achieved until the new employees hired under these initiatives are trained and fully
productive in FY 2008.
The methodology for projecting revenues needs to be improved. The Office of RAS was
responsible for projecting the revenue component of the return on investment of $1.17 billion for
the FY 2006 enforcement initiatives. However, business units did not always provide the Office
of RAS with specific information to correlate revenue projections to the goals of the initiatives.
In addition, revenue projections were based on historical averages that weighted data equally
from years when the priorities and technology of the IRS were substantially different than in
more recent years. The use of a forecasting method that assigns a heavier weight to the most
recent years’ data for purposes of relevance would provide better estimates of projected revenues
than a linear or moving average in most circumstances.
There were also other weaknesses in the methodology used for estimating revenue for the
FY 2006 budget. The Office of RAS has recognized these weaknesses and has begun an effort to
revise its methodology. Specific concerns with the methodology included problems with poor
documentation, reliance on business units for financial data, and the limited number of
employees that understood the Office of RAS’ methodology for forecasting revenues.
Furthermore, the Office of RAS currently does not have a methodology to measure the revenue
resulting from any initiatives that the IRS implements. Without such a method, it will be
difficult to assess how accurately the Office of RAS estimated the revenue for the initiatives.
The absence of such a measurement limits the ability of the Office of RAS to refine its method
for estimating revenues to assist in budgeting for and allocating additional resources.

Recommendations
We recommended the business units provide more information on the type of work expected to
be completed by the additional Full-Time Equivalents (FTE)1 to allow the Office of RAS to more
accurately project revenues. In its revised methodology for projecting revenue, the Office of
RAS should consider using a forecasting model that assigns greater weight to more recent years’
data, such as exponential smoothing, when appropriate. Further, the Office of RAS and the CFO
should develop a methodology to evaluate the results of increased investments in enforcement
activities.




1
 A measure of labor hours in which 1 FTE is equal to 8 hours multiplied by the number of compensable days in a
particular fiscal year. For FY 2004, 1 FTE was equal to 2,096 staff hours.
                                                                                                                 2
                  A Better Model Is Needed to Project the Return on Additional
                               Investments in Tax Enforcement




Response
IRS management stated that the IRS uses information developed through the return on
investment calculations to provide a general idea of the relative value of IRS enforcement
programs. Management does not believe the investment of time and resources needed to
generate refined estimates would be a prudent use of resources. Consequently, management did
not agree with our recommendation that IRS business units should provide more specific
information on the type of work expected of the additional FTEs to allow the Office of RAS to
more accurately project revenues. Management agreed to consider alternative methods to
forecast revenue; however, management did not agree that a benefit would be realized by using
exponential smoothing to forecast the return on additional investments in enforcement and did
not agree with the approximately $182 million outcome related to increased reliability of
information in the instance we provided. Management stated that, when they tested the
exponential smoothing methodology on enforcement revenue collected, they found it to be a less
reliable tool than the current approach. Further, management did not agree with our
recommendation to develop a methodology for tracking additional investments in enforcement
activities because they believe the IRS already has an adequate process in place to monitor
revenue. Management’s complete response to the draft report is included as Appendix V.

Office of Audit Comment
The IRS already devotes significant resources to develop its estimate of the return on additional
investments in tax enforcement. We do not believe implementing our recommendation to use
data that are more specific to the initiatives would require any more effort than would be needed
anyway for effective business planning. It is unclear why management makes a comparison of
exponential smoothing to the approach they use to estimate total enforcement revenue collected.
The approach management uses to forecast total enforcement revenue collected uses only very
recent data, with frequent updates to account for actual data as they are available. This approach
is very different from the 11-year linear average they used to forecast revenue from additional
investments in tax enforcement and is much closer to the model we recommend. As such, we
continue to believe the data we presented clearly show that a significant benefit could be realized
by using our recommended model instead of the 11-year linear average that management
currently uses. IRS management’s response did not address our recommendation to develop a
methodology for tracking additional investments in enforcement activities. The IRS’ current
methodology measures performance by a change in total enforcement revenues, which can be
affected by case closures from past years or by other events not necessarily related to increases in
resources or new FTEs. To determine if the initiatives are meeting the revenue goals that were
used to justify the additional resources, revenues must be associated with the initiatives.



                                                                                                  3
                 A Better Model Is Needed to Project the Return on Additional
                              Investments in Tax Enforcement



Because this report was requested by the former Deputy Secretary of the Treasury, we are
sending a copy to the Deputy Secretary of the Treasury for consideration. Copies of this report
are also being sent to the IRS managers affected by the report recommendations. Please contact
me at (202) 622-6510 if you have questions or Daniel R. Devlin, Assistant Inspector General for
Audit (Headquarters Operations and Exempt Organizations Programs), at (202) 622-8500.




                                                                                              4
                        A Better Model Is Needed to Project the Return on Additional
                                     Investments in Tax Enforcement




                                             Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          Return on Investment Depends on the Types of Enforcement
          Activities and the Time Needed to Achieve Full Productivity .....................Page 4
          The Methodology for Projecting Revenues Needs to Be Improved .............Page 5
                    Recommendation 1:........................................................Page 10

                    Recommendation 2:........................................................Page 11

          Actual Revenues Will Not Be Identifiable by the Amount Invested
          in Each Initiative ...........................................................................................Page 11
                    Recommendation 3:........................................................Page 12


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 13
          Appendix II – Major Contributors to This Report ........................................Page 15
          Appendix III – Report Distribution List .......................................................Page 16
          Appendix IV – Outcome Measures...............................................................Page 17
          Appendix V – Management’s Response to the Draft Report .......................Page 18
                    A Better Model Is Needed to Project the Return on Additional
                                 Investments in Tax Enforcement




                                           Background

Over the past 10 years, the number of Internal Revenue Service (IRS) employees who were
assigned to enforcement functions has significantly declined. In Fiscal Year (FY) 1996, there
were 26,333 revenue agents, revenue officers, and criminal investigators assigned to
enforcement. By FY 2004, this number had decreased to 19,842 (a 25 percent reduction).
The IRS reports that it needs to increase the number of enforcement personnel to meet its
strategic goals. The IRS Strategic Plan for FY 2005-2009 identifies three strategic goals guiding
the future of the IRS:
        1) Improve Taxpayer Service.
        2) Enhance Enforcement of the Tax Law.
        3) Modernize the IRS through its People, Processes, and Technology.
The IRS strives to maintain high levels of taxpayer service while focusing on areas of
noncompliance. The IRS estimates that the difference between taxes that are owed and what is
actually paid is between $312 billion and $353 billion annually. This figure is referred to as the
“tax gap.”1
FY 2006 is the sixth consecutive year the IRS has requested additional staffing for enforcement
activities. However, until FY 2005, the IRS was unable to increase enforcement staffing, as
unbudgeted costs and other priorities consumed the budget increase. Despite this, for FY 2004,
the IRS reported a record $43.1 billion in enforcement revenue, an increase of $5.5 billion from
the previous year.
The IRS’ total FY 2006 budget request is nearly $10.7 billion. This includes an 8 percent
increase for enforcement but a 1 percent reduction in Taxpayer Service and a 2 percent reduction
in Business Systems Modernization. The FY 2006 budget request includes an increase of
$264.6 million for new initiatives aimed at enhancing enforcement of the tax laws, with
projected annual revenues of nearly $1.2 billion for these initiatives. The $264.6 million does
not include additional funds needed for the Federally mandated pay raise and other costs
associated with enforcement activities, which are estimated to be $235.8 million. With these
costs included, the total requested increase for the enforcement budget is $500.4 million. The
new initiatives call for a net increase of 1,672 Full-Time Equivalent (FTE)2 employees for



1
 This estimate was for Tax Year 2001, which is the latest year for which a study has been completed.
2
 A measure of labor hours in which 1 FTE is equal to 8 hours multiplied by the number of compensable days in a
particular fiscal year. For FY 2004, 1 FTE was equal to 2,096 staff hours.
                                                                                                         Page 1
                     A Better Model Is Needed to Project the Return on Additional
                                  Investments in Tax Enforcement



enforcement activities. Figure 1 shows the cost, projected revenue, and estimated return on
investment for each of the five enforcement initiatives.
        Figure 1: Cost, Projected Revenue, and Estimated Return on Investment
                         for the FY 2006 Enforcement Initiatives

                                                                                      Projected
                                                                      Cost            Revenue3         Return on
                           Initiative                             (in millions)     (in millions)     Investment
    Attack Corrosive Non-Compliance Activities Driving the
                                                                       $149.7             $713.4              4.8
    Tax Gap (920 FTEs)
    Deter and Detect Corporate Non-Compliance
                                                                         $51.8            $129.8              2.5
    (236 FTEs)
    Increase Individual Taxpayer Compliance (417 FTEs)                   $37.9            $332.0              8.8

    Curtail Fraudulent Refund Crimes4 (22 FTEs)                          $10.8                   0              0
    Combat Abusive Transactions by Entities With Special
                                                                         $14.5                   0              0
    (exempt) Tax Status (77 FTEs)
    Totals5                                                            $264.6           $1,175.2              4.4
Source: Fiscal Year 2006 Congressional Justification, Office of RAS, and TIGTA computation.

The IRS Chief Financial Officer (CFO) is responsible for the acquisition, planning, control, and
management of all IRS financial resources, including administrative and revenue accounting.
The CFO computes the cost portion of the return on investment. The Office of Research,
Analysis, and Statistics (RAS) provides research, analytical, statistical, and technology services
to the IRS and the Department of the Treasury. Within the Office of RAS, the Office of
Research has a primary responsibility to provide data and analyses on enforcement revenue.
The return on investment ratio for the new IRS enforcement initiatives is not stated in the
FY 2006 budget. However, in discussing the increase in the enforcement budget, the IRS
Commissioner noted there is a yield of more than $4 in direct revenue from IRS enforcement
activities for every $1 invested in the IRS’ total budget.6 The total enforcement revenue for
FY 2004 was $43.1 billion, compared with the total IRS budget of $10.4 billion. The IRS
reported the 4 to 1 return on investment in the FY 2006 Secretary’s Briefing Book. The IRS

3
  This is the annual revenue projected for FY 2008.
4
  The IRS did not estimate revenue for the last two initiatives, but they are considered to be indirectly revenue
producing.
5
  Difference due to rounding.
6
  Oral Statement of Commissioner of Internal Revenue, Mark W. Everson, Before the House Committee on
Appropriations, Subcommittee on Transportation, Treasury, and Housing and Urban Development, the Judiciary,
District of Columbia Hearing on Internal Revenue FY 2006 Budget Request, April 19, 2005.
                                                                                                            Page 2
                 A Better Model Is Needed to Project the Return on Additional
                              Investments in Tax Enforcement



Oversight Board also cited the 4 to 1 return on investment in its FY 2006 IRS Budget Special
Report and as justification for requesting additional enforcement funding in the December 2004
Budget Transmittal Letter of the IRS Oversight Board to the Secretary of the Treasury. The
Board noted that “a 4 to 1 return on investment is a solid business decision.” The former Deputy
Secretary of the Treasury asked the Treasury Inspector General for Tax Administration (TIGTA)
to evaluate whether 4 to 1 is an appropriate ratio to use to determine the return on additional
investments in enforcement activity.
This review was performed at the IRS National Headquarters in the Office of the CFO and the
Office of RAS in Washington, D.C., from February through May 2005. The audit was
conducted in accordance with Government Auditing Standards. Detailed information on our
audit objective, scope, and methodology is presented in Appendix I. Major contributors to the
report are listed in Appendix II.




                                                                                         Page 3
                     A Better Model Is Needed to Project the Return on Additional
                                  Investments in Tax Enforcement




                                      Results of Review

Return on Investment Depends on the Types of Enforcement
Activities and the Time Needed to Achieve Full Productivity

In general, we do not believe there is an adequate basis to use the total IRS budget to determine a
return on investment for enforcement activities. Enforcement is only one component of the IRS
that collects revenue. In contrast, the return on investment for the entire IRS budget would be
more appropriately compared with all revenues collected, not just those generated by
enforcement activities. In FY 2004, the IRS collected $2.0 trillion in revenue, which provides a
return on investment of approximately 200 to 1 on the total IRS budget.
As such, a 4 to 1 return on investment for enforcement activities would not be an appropriate
baseline for the IRS to use. A more representative return on investment for enforcement
activities is the comparison of enforcement revenue ($43.1 billion) to the enforcement budget.
When overhead is allocated to the enforcement functions, the IRS estimates that its total
enforcement costs for FY 2004 were $6.1 billion.7 Using this estimate, the return on investment
for enforcement activities is 7 to 1.
There are specific functions in the IRS that could yield a much higher return on additional
investments than the initiatives selected by the IRS for FY 2006. However, the IRS has
indicated that with these initiatives it is pursuing a balanced approach to tax enforcement. To
accomplish this, resources are distributed among diverse types of enforcement activities with
significant differences in the returns on investment. For example, employees assigned to
automated functions can achieve a return on investment in excess of 20 to 1, while the return on
investment to investigate high-income taxpayers who are not complying with the tax law is much
less (in some instances less than 2 to 1) because of the time and resources needed. IRS officials
believe the FY 2006 enforcement initiatives represent the needs most consistent with its goal of
achieving balanced enforcement.
The IRS provided estimates that it will eventually achieve approximately $1.17 billion in
additional revenues if additional funding for its proposed FY 2006 enforcement initiatives is
approved. This would equate to a 4.4 to 1 return on investment. Officials in the Office of the
CFO and the Office of RAS believe the 4.4 to 1 return on investment is a conservative estimate.
However, our analysis indicates the estimate may be too high. Furthermore, achieving the
maximum revenue through increased enforcement staffing can occur only over time. In the

7
  This is based on the IRS estimate of enforcement costs, including overhead. Without the allocation of overhead,
the enforcement costs are $4.2 billion.
                                                                                                           Page 4
                       A Better Model Is Needed to Project the Return on Additional
                                    Investments in Tax Enforcement



FY 2006 Secretary’s Briefing Book, the IRS reported that, when calculating the return on
investment, it assumed newly hired employees were not as productive as experienced employees
and made adjustments to reflect it. As such, the anticipated return on investment would not be
achieved until the new employees hired under these initiatives are trained and fully productive in
FY 2008.
This is due to adjustment factors                Figure 2: Projected Revenues and Return on
such as lost revenue while                          Investment for Enforcement Initiatives
employees are in training,                                 (FYs 2006 Through 2008)
opportunity costs for the
trainers, and the lower                                               Estimated        Projected
productivity of newly hired                                              Cost8         Revenue        Return on
                                            Fiscal Year              (in millions)   (in millions)   Investment
employees during the time
needed to complete the learning             FY 2006                     264.6             534          2.02
curve. Figure 2 shows how this
                                            FY 2007                     264.6             909          3.44
affects projected revenues for
FYs 2006 through 2008.                      FY 2008                     264.6           1,175          4.44
                                            Source: Office of the CFO and the Office of RAS.


The Methodology for Projecting Revenues Needs to Be Improved

The Office of RAS was responsible for projecting the revenue component of the return on
investment of $1.17 billion for the FY 2006 enforcement initiatives. However, business units did
not always provide the Office of RAS with specific information to correlate forecasted revenue
with the goals of the initiatives. In addition, revenue projections were based on historical
averages that weighted data equally from years when the priorities and technology of the IRS
were substantially different than in more recent years.

The revenues projected for the FY 2006 initiatives did not always correlate to the
goals of the initiatives

The Office of RAS forecasted revenue based on historical averages without regard to the
classification of workload or inventories except in the instances where the business units defined
the specific use of resources. For example, the initiative to Attack Corrosive Non-Compliance
Activity Driving the Tax Gap focuses partly on the concern over the proliferation of abusive
trusts and shelters. The business units provided specific information on how 240 FTEs would be
assigned to investigate abusive trusts and shelters. For these FTEs, the Office of RAS forecasted


8
    The CFO did not include cost of living increases when projecting costs.
                                                                                                          Page 5
                    A Better Model Is Needed to Project the Return on Additional
                                 Investments in Tax Enforcement



revenue based on the historical productivity of other resources assigned to similar cases.
However, the business units did not provide specific information on the remaining 680 FTEs that
were requested for the initiative. To forecast the revenue for these FTEs, the Office of RAS used
historical averages for all work completed by an entire job series or classification. For example,
when projecting the yields and revenue for the 260 revenue officers requested, the Office of RAS
used the combined average for revenue officers assigned to individual cases and for revenue
officers assigned to business cases.
In total, the business units provided specific information for 440 of the 1,573 FTEs (28 percent)
that the IRS requested for its 3 direct revenue-producing initiatives.9 Although specific
information on the types of cases and inventories may not be available or predictable for all of
the FTEs, the business units should be able to provide more specific information for a portion of
the remaining 1,133 positions. By receiving more information, such as whether employees will
be assigned to business or individual cases, the Office of RAS will be able to more accurately
forecast revenue.

Revenue projections were based on outdated data

The Office of RAS’ revenue projections for the FY 2006 initiatives were based on an 11-year
linear average. The Office of RAS used 11 years because the Enforcement Revenue Information
System Database contained information for 11 years. These 11-year averages were used to
calculate the historical yield per FTE, which was then applied to the number of requested new
FTEs to compute expected revenue.




9
 The Office of RAS projected revenue for only the following three direct revenue-producing initiatives: Attack
Corrosive Non-Compliance Activities Driving the Tax Gap, Deter and Detect Corporate Non-Compliance, and
Increase Individual Taxpayer Compliance.
                                                                                                          Page 6
                           A Better Model Is Needed to Project the Return on Additional
                                        Investments in Tax Enforcement



The Office of RAS projected yield factors for six                        Figure 3: FTEs by Type for the
types of employees that the IRS requested for the                      Direct Revenue-Producing FY 2006
FY 2006 enforcement initiatives. Figure 3 shows                              Enforcement Initiatives
the types of employees that were requested. As
noted previously, with the exception of the                            Job Category                             FTEs
440 FTEs that were specifically tied to initiative
                                                                       Revenue Agents                            440
goals, the yield factors for the FTEs within each job
category were identical, regardless of the initiative                  Revenue Officers                          260
or the business unit to which they were assigned.
                                                                       Automated Collection System               438
Over the past 11 years, the IRS has undergone a
number of changes resulting from the IRS                               Tax Compliance Officers                    50
Restructuring and Reform Act of 1998.11 In                             Correspondence Examiners                  186
addition, business methods have been affected by
modernization and technological advancements.                          Automated Underreporter                    94
These changes contributed to a significant variance
                                                                       Total10                                  1,468
in the amount of enforcement revenue the IRS has
collected over the past 11 years. Figure 4 shows the                   Source: Office of the CFO.
amount of collected enforcement revenue from
FY 1993 through FY 2004.12

                     Figure 4: Enforcement Revenues (FYs 1993 through 2004)
                     $45


                     $40


                     $35
     Revenue
     (in billions)
                     $30


                     $25


                     $20
                            1993   1994   1995   1996   1997   1998   1999   2000   2001   2002   2003   2004

                                                         Fiscal Year
Source: Enforcement Revenue Information System.



10
   The total does not equal 1,573 because some FTEs are for functions that do not produce direct revenues.
11
   Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
12
   FY 2004 revenue was not available when the IRS projected revenue for the FY 2006 enforcement initiatives.
                                                                                                                  Page 7
                       A Better Model Is Needed to Project the Return on Additional
                                    Investments in Tax Enforcement



Studies by the National Institute of Standards and Technology have shown that in most
circumstances the use of exponential smoothing provides a better estimate of projected revenues
than use of linear or moving averages. Exponential smoothing is a method of forecasting
revenue that uses historical data but assigns heavier weights to the most recent years’ data for
purposes of relevance. According to the Institute for Forecasting Education, exponential
smoothing is the most widely practiced method of extrapolative forecasting. We compared the
forecast for recommended assessments using linear averaging and exponential smoothing13 with
the actual recommended assessments for the past 9 years14 in Examination. Figure 5 shows how
exponential smoothing provides a more accurate estimate of projected recommended
assessments for Examination:15

                             Figure 5: Forecasting Examination Recommended
                              Assessments Using Different Forecasting Models
                       $35


                       $30


         Dollars $25
       (in billions)

                       $20


                       $15
                               1995   1996    1997   1998   1999    2000   2001    2002    2003
                                                     Fiscal Years

                             Linear Average      Exponential Smoothing         Actual Revenue


      Source: Office of RAS and TIGTA analysis.

For examination-recommended assessments, the forecast using exponential smoothing was
closer to actual recommended assessments for 8 of the 9 years. Figure 6 shows the differences,



13
   We used triple exponential smoothing for our examples.
14
   Forecasting requires at least 2 years of historical data for computation. Therefore, we compared projected
recommended assessments from FY 1995 through FY 2003.
15
   Revenue based on recommended dollars, prior to the reduction for collectibility ratios. This comparison was
based on the data that were available at that time for each fiscal year.
                                                                                                           Page 8
                  A Better Model Is Needed to Project the Return on Additional
                               Investments in Tax Enforcement



in terms of recommended assessments, between the assessments projected using linear averaging
and exponential smoothing and the actual assessments from FYs 1995 through 2003.
While the projected recommended                  Figure 6: Examination-Recommended
assessments using the linear average                    Assessment Projections
were within 16 percent of the actual               FYs 1995 Through 2003 (in billions)
recommended assessments, the
projected assessments using                                                   Exponential   Linear
                                            Forecasts of:                     Smoothing     Average
exponential smoothing were within
4 percent of actual recommended             Actual Recommended
                                                                                $ 227.6      $ 227.6
assessments. This analysis shows that,      Assessments
over the past 8 years, exponential
smoothing would have provided a             Projected Assessments                 235.8        262.3
more reliable projection of IRS             Differences                           $ 8.2       $ 34.7
enforcement assessments than the use
of linear averaging.                        Source: Office of RAS and TIGTA analysis.

To demonstrate the effect exponential smoothing would have on the IRS FY 2006 enforcement
initiatives, we applied exponential smoothing to 1 type of FTE, the 438 Automated Collection
System employees that the IRS requested. This analysis showed that exponential smoothing
projected significantly less revenue compared with the linear average used by the Office of RAS.
Figure 7 shows the difference between           Figure 7: Difference in Expected Revenue
the two forecasting models. The                 for the 438 Automated Collection System
projected revenue using exponential            FTEs in the FY 2006 Enforcement Initiatives
smoothing was $182 million less than the
$597 million forecasted by the Office of      Forecasting Technique                   Projected Revenue
RAS. The analysis demonstrates that the
reported return on investment may not be Linear Average                                    $597 million
a conservative estimate, as indicated by      Exponential Smoothing                        $415 million
officials from the Office of the CFO and
the Office of RAS, but may actually be        Difference                                   $182 million
too high. We believe the Office of RAS        Source: Office of RAS and TIGTA analysis.
should evaluate the use of a forecasting
model that assigns greater weight to more recent years’ data, such as exponential smoothing,
rather than linear averaging to improve its estimates of future revenue.
There were also other weaknesses in the methodology used for estimating revenue for the
FY 2006 enforcement initiatives. The Office of RAS has recognized these weaknesses and has
begun an effort to revise its methodology. Specific concerns with the methodology included:




                                                                                                Page 9
                  A Better Model Is Needed to Project the Return on Additional
                               Investments in Tax Enforcement



 •   Poor documentation – The Office of RAS had difficulty explaining how some of its
     revenue estimates were computed because its methodology was poorly documented. The
     employee who prepared the revenue projections had left the organization.
 •   Reliance on business units for financial data – The Office of RAS could not complete
     estimates of revenue until it obtained information from each of the business units, which
     delayed the process.
 •   Breadth of knowledge – The complete methodology and process for projecting revenues
     was known by only one individual; only one other employee had partial knowledge of the
     process.
The Office of RAS is addressing these weaknesses in its revised methodology and expects to
implement corrective changes for the FY 2007 budget submission. While these changes will
improve the process for projecting revenues, the business units should provide more information
on the type of work that employees will be assigned, and the Office of RAS should consider
revising its practice of using linear averaging as the basis for estimating productivity yields and
projecting revenue.


Recommendations
Recommendation 1: During the budget process, the business units should provide more
information on the type of work expected of the additional FTEs to allow the Office of RAS to
more accurately project revenues.
       Management’s Response: IRS management agreed more information on the sort of
       work expected of new FTEs might be helpful in the budget process but responded that the
       business units were unable to provide such information. IRS management added that, in
       general, the business units do provide work plans from which the Office of Research uses
       information to compute revenue projections for initiatives. The information used from
       the work plans includes the type and numbers of employees to be hired and the sort of
       work expected of the new FTEs. IRS management believes this type of information is
       sufficient to support the task of projecting expected future revenues generated by the
       initiatives. Management also noted that the business units must provide estimates of
       projected hiring approximately 18 months before the beginning of the fiscal year to
       which each budget relates.
       Office of Audit Comment: We believe our recommendation to use data that are more
       specific to the initiatives will improve forecasting as well as produce effective business
       planning. IRS business units were able to specify the type of work expected for fewer
       than one-third (440 of 1,573) of the FTEs used to justify the budget needed for the tax
       enforcement initiatives. The Office of RAS used overall averages when specific
       information was not provided, which reduces the reliability of its estimates. Further,
                                                                                           Page 10
                 A Better Model Is Needed to Project the Return on Additional
                              Investments in Tax Enforcement



       management did not explain why the need to plan 18 months in advance would prevent
       them from determining the number of FTEs needed for each type of work to accomplish
       the goals of each initiative.
Recommendation 2: In its revised methodology for projecting revenue, the Office of RAS
should consider using a forecasting model that assigns greater weight to more recent years’ data,
such as exponential smoothing, when appropriate.
       Management’s Response: IRS management agreed to consider alternative
       methodologies for forecasting revenues, including the most appropriate ways to
       incorporate the historical data on enforcement revenue. Management noted that these
       efforts were ongoing, and the methodology would be reviewed prior to each budget
       submission. However, management did not agree that a benefit would be realized by
       using exponential smoothing to forecast the return on additional investments in
       enforcement and did not agree with the $182 million outcome related to increased
       reliability of information in the instance we provided. Management stated that, when
       they tested the exponential smoothing methodology on enforcement revenue collected,
       they found it to be a less reliable tool than the current approach.
       Office of Audit Comment: It is unclear why management makes a comparison of
       exponential smoothing to the approach they use to estimate total enforcement revenue
       collected. The approach management uses to forecast total enforcement revenue
       collected uses only very recent data, with frequent updates to account for actual data as
       they are available. This approach is very different from the 11-year linear average they
       used to forecast revenue from additional investments in tax enforcement and is much
       closer to the model we recommend. As such, we continue to believe the data we
       presented clearly show that a significant benefit could be realized by using our
       recommended model instead of the 11-year linear average that management currently
       uses.


Actual Revenues Will Not Be Identifiable by the Amount Invested in
Each Initiative

The Office of RAS currently does not have a methodology to measure the revenue resulting from
any initiatives that the IRS implements. Without such a method, it will be difficult to assess how
accurately the Office of RAS estimated the revenue for the initiatives. The absence of such a
measurement limits the ability of the Office of RAS to refine its method for estimating revenues
to assist in budgeting for and allocating additional resources.
While the placement of additional FTEs in enforcement would likely increase revenue over time,
a change in FTEs will not necessarily correlate to a direct increase in revenue in the short term.
For example, although the IRS realized a $5.5 billion increase in revenue between FYs 2003 and
                                                                                          Page 11
                  A Better Model Is Needed to Project the Return on Additional
                               Investments in Tax Enforcement



2004, the increase was not caused by an increase in FTEs. The majority of the increase (nearly
$4 billion) resulted from closing tax shelter cases, high-income cases, and one particularly large
case. Furthermore, economic conditions and inflation will also affect the revenue collected.
The IRS should estimate and report the expected benefits when requesting additional resources.
However, if new resources are provided by initiative, it is not possible to report back to the
Office of Management and Budget, or to Congress, if the benefits were ever realized. Officials
from the Office of RAS advised us that they have used a method in the past to try to track
associated revenue increases; however, it becomes more difficult with time, especially if
increases or reductions in enforcement staff occur in subsequent years. The CFO noted that the
IRS cannot keep track of newly hired employees throughout their career to monitor the type of
work completed and whether they are achieving yields expected under the hiring initiatives. The
CFO also noted that the IRS’ budget was not consistent, and priorities can change based on
fluctuations in budget levels.
Notwithstanding these concerns, we believe the ability to demonstrate the results of additional
investments in enforcement activities could add a significant benefit to the budget process. As
such, the IRS should develop a means of evaluating the results of increases (or changes) to
resources in its enforcement activities.


Recommendation
Recommendation 3: The CFO and the Office of RAS should develop a methodology to
evaluate the results of increased investments in enforcement activities.
       Management’s Response: IRS management believes they already have in place a
       rigorous process for determining, reviewing, and monitoring the performance impact of
       investments in enforcement activities. The IRS includes specific projections with and
       without requested initiative funding for performance measures in each budget
       submission. The measures are closely monitored by each business unit. Management is
       confident their current methodology is sufficient to evaluate the results of increased
       investments in enforcement activities.
       Office of Audit Comment: IRS management’s response does not address our
       recommendation. The inclusion of projections for budget submissions does not provide
       the same information as measuring actual revenue generated from new initiatives. To
       determine if the initiatives are meeting the revenue goals that were used to justify the
       additional resources, revenues must be directly associated with the initiatives. The IRS’
       current methodology measures performance by a change in total enforcement revenues,
       which can be affected by case closures from past years or by other events not necessarily
       related to increases in resources or new FTEs.


                                                                                           Page 12
                 A Better Model Is Needed to Project the Return on Additional
                              Investments in Tax Enforcement



                                                                                  Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this review was to evaluate the return on investment for enforcement
activities based upon the expected revenues reported in the Internal Revenue Service (IRS)
Fiscal Year (FY) 2006 budget request. In discussing the requested increase in its budget for new
tax enforcement initiatives for FY 2006, the IRS Commissioner noted there is a yield of more
than $4 in direct revenue from IRS enforcement efforts for every $1 invested in the IRS’ total
budget. To accomplish our audit objective, we:
   I.      Evaluated the methodology used to develop the reported return on investment.
           A. Interviewed Office of Research, Analysis, and Statistics (RAS) and Chief
              Financial Officer officials to determine how the return on investment was
              computed.
           B. Reviewed supporting data and documentation used to develop the return on
              investment.
           C. Interviewed business unit officials responsible for providing the data used to
              develop the return on investment.
           D. Identified any nonfinancial components of the return on investment computation,
              such as the learning curve for newly hired employees.
           E. Assessed how the Office of RAS and the Chief Financial Officer applied
              nonfinancial considerations into the return on investment computation and how
              they affected the reported amount.
           F. Determined whether the historical data used to develop the return on investment
              were appropriate.
   II.     Determined the reasonableness of the reported enforcement costs and revenues.
           A. Traced the revenues and costs to supporting documentation and data sources.
           B. Determined whether the sources and components of the computation were
              reasonable.
           C. Determined whether the costs and revenues were compiled by specific
              enforcement functions.
           D. Determined whether reported revenues were based on amounts actually collected,
              rather than amounts assessed.


                                                                                          Page 13
             A Better Model Is Needed to Project the Return on Additional
                          Investments in Tax Enforcement



       E. Determined the causes for any period(s) of unusually high or low revenues or
          costs.
III.   Evaluated the methodology for forecasting revenue in each of the five initiatives.
       A. Determined how the IRS computed expected revenue and costs for each of the
          five initiatives.
       B. Determined whether the computations for each initiative were consistent with the
          goals of each initiative and whether each initiative had a unique methodology for
          forecasting revenue.
       C. Determined whether the IRS can measure the revenue generated by each
          initiative.




                                                                                      Page 14
                 A Better Model Is Needed to Project the Return on Additional
                              Investments in Tax Enforcement



                                                                              Appendix II

                 Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs)
Michael E. McKenney, Director
Carl L. Aley, Audit Manager
Richard J. Viscusi, Lead Auditor
Janice M. Pryor, Senior Auditor
Chinita M. Coates, Auditor
Michael Della Ripa, Auditor




                                                                                      Page 15
                 A Better Model Is Needed to Project the Return on Additional
                              Investments in Tax Enforcement



                                                                    Appendix III

                          Report Distribution List

Deputy Secretary of the Treasury
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Chief Financial Officer OS:CFO
       Director, Office of Research, Analysis, and Statistics RAS




                                                                          Page 16
                    A Better Model Is Needed to Project the Return on Additional
                                 Investments in Tax Enforcement



                                                                                             Appendix IV

                                    Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to the Congress.

Type and Value of Outcome Measure:

Reliability of Information – Actual; approximately $182 million in reported expected revenues
for 438 Automated Collection System Full-Time Equivalents (FTE)1 requested in the Fiscal
Year (FY) 2006 enforcement initiatives. This amount represents only 438 of the
1,468 (30 percent) requested FTEs and will change when the Office of Research, Analysis, and
Statistics (RAS) revises its revenue projection for the remaining 1,030 requested positions that
we did not recalculate for this review (see page 5).


Methodology Used to Measure the Reported Benefit:

The Office of RAS projected revenues for the FY 2006 initiatives based on the linear average of
the employees’ yields over the past 11 years. The average weighted data equally from years
when the priorities and technology of the IRS were substantially different than in more recent
years. The use of a forecasting method which assigns a heavier weighting to the most recent
years’ data would provide better estimates of projected revenues than a linear or moving average.
The Office of RAS estimated that the 438 Automated Collection System employees would
increase revenue by $597 million annually. If the Office of RAS projected revenue using
exponential smoothing, which weighs most recent years’ data more heavily, the projected
revenue for these employees would be $415 million, for a difference of $182 million.




1
 A measure of labor hours in which 1 FTE is equal to 8 hours multiplied by the number of compensable days in a
particular fiscal year. For Fiscal Year 2004, 1 FTE was equal to 2,096 staff hours.

                                                                                                        Page 17
    A Better Model Is Needed to Project the Return on Additional
                 Investments in Tax Enforcement



                                                     Appendix V

Management’s Response to the Draft Report




                                                            Page 18
A Better Model Is Needed to Project the Return on Additional
             Investments in Tax Enforcement




                                                        Page 19
A Better Model Is Needed to Project the Return on Additional
             Investments in Tax Enforcement




                                                        Page 20
A Better Model Is Needed to Project the Return on Additional
             Investments in Tax Enforcement




                                                        Page 21
